Appendix A
Table of Contents
Rule 14.1(i)(i)—Appellate Opinion

A-l

USCAll (Apr. 28, 2020) — Affd. with sanctions.
A-l
Rule 14.1(i)(ii)—Additional Orders

A-16

[58] M.D.Fla. (Dec. 21, 2017) - First Dismissal
(IRS-related parties)
A-16
[59] Deputy Clerk, M.D.Fla. (Dec. 22, 2017) “Judgment” per [58]................................... A-26
[73] M.D.Fla. (Mar. 28, 2019) — Second Dismissal
A-27
(SCOTTRADE)
[74] Deputy Clerk, M.D.Fla. (Mar. 29, 2019) “Judgment” per [73]
A-29
Rule 14.1(i)(iii)—Rehearing
None

A-30
A-30

Rule 14.1(i)(iv)—Judgment of Different Date... A-30
None on appeal

A-30

Rule 14.1 (i) (v)—Statutes

A-30

The efficient focus is on reinstating FOIA.. . A-30
Rule 14.1(i)(vi)—Additional materials
Reference to the Record will suffice.

A-ii

A-30
A-30

Appendix A
Rule 14.1(i)(i)—Appellate Opinion
USCA11 (Apr. 28, 2020) - Affd. with sanctions.
Case: 19-12003 Date Filed: 04/28/2020 Page: 1 of 17
[DO NOT PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-12003
Non-Argument Calendar
D.C. Docket No. 2:17-cv-00281-JES-UAM
MICHAEL EDWARD BUFKIN,
Plaintiff - Appellant,
versus
SCOTTRADE, INCORPORATED,
apparently an Arizona corporation,
officially and individually,
JACOB J. LEW
Secretary, the Department of the Treasury,
officially and individually,
d.b.a. U.S. Department of Treasury,
TIMOTHY F. GEITHNER,
Secretary, the Department of the Treasury,
officially and individually
d.b.a. U.S. Department of Treasury,
JOHN KOSKINEN,
Commissioner, Internal Revenue Service,
officially and individually,
DOUGLAS SHULMAN,
Commissioner, Internal Revenue Service,
officially and individually, et al.,

[±2]
Defendants — Appellees.
Appeal from the United States District Court
for the Middle District of Florida
(April 28, 2020)
Before JORDAN, NEWSOM, and TJOFLAT, Circuit
Judges.
PER CURIAM: .
Michael Edward Bufkin, appearing pro se,
appeals the District Court’s orders dismissing his
“tax” claims against Scottrade, Inc. and officials and
staff of the Internal Revenue Service (“IRS”) and the
U.S. Department of Treasury (collectively, the
“government parties”) for selling the stocks in his
Scottrade account and conspiring to have Scottrade
give the funds to the IRS to satisfy a tax liability. He
claims that he never “volunteered” to be a taxpayer,
and thus that it was improper to take the funds from
his trading account to satisfy his alleged tax liability.
As best as we can tell from his complaint, he asserts
a breach of contract claim against Scottrade for
selling his shares at the request of the IRS and
various claims against the government parties in
both their official and individual capacities,
including Bivens1 and intentional tort claims for
violating his “right not [ x 3 ] to contract” with the
IRS to pay taxes, conspiracy to obtain the funds in
his Scottrade account and to violate his right not to
contract with the IRS, failure to prevent the
1 Bivens v. Six Unknown Named Agents of the
Fed. Bureau of Narcotics, 403 U.S. 388, 91 S. Ct.
1999 (1971).
A-2

conspiracies under 42 U.S.C. § 1983, failure to train,
and a request for administrative sanctions.
Alternatively, he seeks a declaration that he is not a
“taxpayer,” guidance on how to terminate his
obligations as a taxpayer, or “injunctive/mandamus
relief requiring the production of documents showing
that Bufkin is indeed a taxpayer.
On appeal, Bufkin argues that the District Court
erred by (1) denying his motion to strike the
magistrate judge’s order staying discovery; (2)
granting the government parties’ motion to dismiss
his complaint against them; (3) granting Scottrade’s
motion to compel arbitration of the claims against it;
and (4) permitting the clerk to sign and enter the
judgments against him. The government parties
have also moved for sanctions against Bufkin under
Federal Rule of Appellate Procedure 38, on the
ground that this appeal is frivolous. After careful
review, we affirm the District Court’s orders in all
respects and grant the government parties’ motion
for sanctions.
I.
Bufkin first appeals the District Court’s denial of
his motion to strike the magistrate judge’s order
staying discovery. He claims that the magistrate
judge lacked the authority to make any decisions in
his case because he did not consent [ x 4 ] to
resolution by a magistrate judge, and so the District
Court erred in denying his motion to strike the
magistrate judge’s order and the magistrate judge
abused her discretion in staying discovery.
We review a district court’s discovery orders for
abuse of discretion. See Chudasama v. Mazda Motor
Corp., 123 F.3d 1353, 1366 (11th Cir. 1997). The
district court “may designate a magistrate judge to
A-3

hear and determine any pretrial matter pending
before the court,” with certain listed exceptions for
dispositive matters that do not apply here. 28 U.S.C.
§ 636(b)(1)(A). The district court reviews a
magistrate judge’s determinations on non-dispositive
pretrial matters under the clearly-erroneous or
contrary-to-law standard. Jordan v. Comm’r, Miss.
Dep’t ofCorr., 947 F.3d 1322, 1327 (11th Cir. 2020)
(citing 28 U.S.C. § 636(b)(l )(A)>.
Here, the District Court was well within its
discretion to refer this non-dispositive, pretrial
discovery matter to the magistrate judge in
accordance with § 636(b)(1)(A). Contrary to Bufkin’s
contention, the parties’ consent is not required for a
magistrate judge to resolve such discovery disputes.
Moreover, the magistrate judge did not clearly err
in staying discovery pending the government parties’
motion to dismiss and Scottrade’s motion to compel
arbitration. Under the Federal Arbitration Act
(“FAA”), a court “shall on application of one of the
parties stay” the proceedings if it finds that the issue
[ x 5 ] presented is “referable to arbitration under an
agreement in writing for such arbitration,” so that
the parties may arbitrate the claims in accordance
with the terms of the agreement. 9 U.S.C. § 3.
Additionally, “[fjacial challenges to the legal
sufficiency of a claim or defense, such as a motion to
dismiss based on failure to state a claim for relief,
should... be resolved before discovery begins.”
Chudasama, 123 F.3d at 1367. “Because a facial
challenge to the legal sufficiency of a claim raises
only questions of law, ‘neither the parties nor the
court have any need for discovery before the court
rules on the motion.’” World Holdings, LLC v. Fed.
Republic of Germany, 701 F.3d 641, 655 (11th Cir.
A-4

2012) (quoting Chudasama, 123 F.3d at 1367).
Scottrade filed a motion to compel arbitration in
accordance with its written arbitration agreement
with Bufkin, and the government parties filed a
motion to dismiss for lack of subject-matter
jurisdiction under Rule 12(b)(1) and failure to state a
claim under Rule 12(b)(6), challenging the legal
sufficiency of Bufkin’s complaint. The magistrate
judge took a “preliminary peek” at the motions and
determined that they were likely meritorious and
dispositive of the case. Given the potential for
Bufkin’s claims against Scottrade to be resolved in
arbitration, and the likelihood that Bufkin’s claims
against the government parties could be fully
resolved on the government parties’ motion to
dismiss, the magistrate judge [ ± 6 ] appropriately
stayed discovery until these motions could be
decided. As such, the District Court did not abuse its
discretion in denying Bufkin’s motion to strike.
II.
Next, Bufkin appeals the District Court’s order
granting the government parties’ motion to dismiss.
The District Court found, as a preliminary matter,
that Bufkin’s argument that he is not a taxpayer
because he did not volunteer to pay taxes is “patently
frivolous,” and so it dismissed his requests for
injunctive and declaratory relief regarding his status
as a taxpayer without further discussion. It then
considered the various bases upon which the Court
might exercise subject matter jurisdiction over
Bufkin’s claims against the government parties in
their official capacities. After determining that no
such basis for jurisdiction existed, it dismissed those
claims for lack of subject-matter jurisdiction.
Moreover, with respect to Bufkin’s claims against the
A-5

government parties in their individual capacities, the
Court found that none of the individuals were
properly served, and so the Court lacked personal
jurisdiction over the government parties with respect
to those claims. In any event, the Court found that
Bufkin had not alleged any well-plead constitutional
violations under Bivens. We first address the District
Court’s rulings that it lacked subject-matter
jurisdiction and personal jurisdiction over the
government parties, and then consider the District
Court’s alternative dismissal under Rule 12(b)(6).
[-1-7]

A.
We review dismissal for lack of subject matter
jurisdiction de novo. Christian Coal, of Fla., Inc. v.
United States, 662 F.3d 1182, 1188 (11th Cir. 2011).
Sovereign immunity limits the court’s jurisdiction to
hear claims against the United States to only those
areas where Congress has expressly waived the
immunity—i.e., where the federal government has
consented to be sued. Id.; see also United States v.
Mitchell, 463 U.S. 206, 212, 103 S. Ct. 2961, 2965
(1983) (“It is axiomatic that the United States may
not be sued without its consent and that the
existence of consent is a prerequisite for
jurisdiction.”). The immunity covers federal officials
sued in their official capacities. See Davila v.
Gladden, 111 F.3d 1198, 1209 (11th Cir. 2015). “In
order to authorize official-capacity suits, Congress
must clearly waive the federal government’s
sovereign immunity.” Id. Statutes waiving immunity
are thus strictly construed. Id.; Christian Coal, of
Fla., 662 F.3d at 1188.
None of the statutes that Bufkin cites in his
complaint support exercising subject-matter
A-6

jurisdiction over his claims against the government
parties in their official capacities. Bufkin cites 28
U.S.C. § 1330, which provides for district courts’
original jurisdiction over actions against foreign
states; § 1333, which provides for admiralty and
maritime jurisdiction; and § 1339, which provides for
“original jurisdiction of any civil action arising under
any Act of Congress relating [ ± 8 ] to the postal
service.” Those statutes are plainly inapplicable
here. He also cites § 1331, which provides for
jurisdiction over civil claims arising under the
constitution and laws of the United States (i.e.,
federal questions), and § 1343, which applies to
federal civil, rights violations by state officials, but
neither of those statutes provide a waiver of
sovereign immunity. See Beale v. Blount, 461 F.2d
1133, 1138 (5th Cir. 1972).2
The District Court considered several other
potential grounds for exercising jurisdiction,
including under the Federal Tort Claims Act
(“FTCA”) or as a claim for the recovery of taxes
under 28 U.S.C. § 1346(a)(1), and correctly concluded
that neither of those statutes authorized Bufkin’s
suit against the government parties in their official
capacities, primarily because Bufkin had not taken
steps to exhaust his administrative remedies.3 See
Motta ex rel. A.M. v. United States, 717 F.3d 840, 843
(11th Cir. 2013) (explaining that while the FTCA
provides a limited waiver of the United States’
2 In Bonner v. City of Prichard, 661 F.2d 1206,
1209 (11th Cir. 1981) (en banc), this Court adopted
as precedent all decisions of the former Fifth Circuit
Court of Appeals decided prior to October 1, 1981.
3 Bufkin also explicitly disclaimed reliance on
§ 1346 for establishing subject-matter jurisdiction.
A-7

sovereign immunity for tort claims, a federal court
may not exercise jurisdiction over a suit unless the :
claimant first files an administrative claim with the .
appropriate agency); 26 U.S.C. § 7422(a) (“No suit or
proceeding shall be maintained in any court for the
recovery of any internal [ jl 9 ] revenue tax alleged to
have been erroneously or illegally assessed or
collected/ or of any penalty claimed to have been
collected without authority, or of any sum alleged to
have been excessive or in any manner wrongfully
collected, until a claim for refund or credit has been
duly filed with the Secretary.”)-4' Furthermore, as we
stated in Bufkin’s previous appeal to this Court, the
Anti-Injunction Act and Declaratory Judgment Act
do not authorize his requests for injunctive or
declaratory relief. See Bufkin v. United States, 522 F.
App’x 530, 533 (11th Cir. 2013).
Rather than present any nbn-frivolous arguments
4 The Court also considered whether it could
exercise jurisdiction over Bufkin’s suit by construing
it as a claim regarding the collection of taxes under
26 U.S.C. § 7433(a). But even if that might have
provided a basis for the Court’s subject-matter
jurisdiction, see Galvez v. I.R.S., 448 F. App’x 880,
887 (11th Cir. 2011) (declining to construe
§ 7433(d)(l)’s requirement that a plaintiff exhaust
administrative remedies as a jurisdictional bar to
suit), Bufkin’s suit should still have been dismissed
for failure to state a claim due to his failure to
exhaust his administrative remedies, see 26 U.S.C.
§ 7433(d)(1) (“A judgment for damages shall not be
awarded... unless the court determines that the
plaintiff has exhausted the administrative remedies
available to such plaintiff within the Internal
Revenue Service.”).
A-8

supporting jurisdiction or a waiver of sovereign
immunity, Bufkin has simply dismissed the
government parties’ claim of sovereign immunity as
“insanity run amuck” and a “cover story defense.”
The District Court properly dismissed Bufkin’s
claims against the government parties in their
official capacities for lack of subject-matter
jurisdiction. [ _l 10 ]
B.
We review dismissal for lack of personal
jurisdiction de novo. Fraser v. Smith, 594 F.3d 842,
846 (11th Cir. 2010). The district court lacks
personal jurisdiction when service of process is not in
“substantial compliance” with the requirements of
the Federal Rules of Civil Procedure, even if a
defendant has actual notice of the filing of the suit.
See Prewitt Enters., Inc. v. OPEC, 353 F.3d 916, 925
(11th Cir. 2003). To serve a government official in his
individual capacity, a party must both serve the
United States and serve the official personally under
Rule 4(e). Fed. R. Civ. P. 4(i)(3). Here, Bufkin
attempted to serve the government parties in their
individual capacities by delivering the summons via
certified mail to the Department of Treasury and IRS
government offices in Washington, D.C. and Florida.
Rule 4 generally permits service of process by
certified mail only if the defendant agrees to waive
personal service. Fed. R. Civ. P. 4(d). Otherwise,
Rule 4 does not authorize service through certified
mail unless such service is permitted under the laws
of the state where the district court is located-here,
Florida-or the state where service is made—here,
either Florida or the District of Columbia. See Fed.
R. Civ. P. 4(e)(1). Florida law permits service by
certified mail, but only if the defendant agrees to
A-9

waive personal service. Fla. R. Civ. P. 1.070(i);
Transp. & Gen. Ins. Co. v. Receiverships of Ins. Exch.,
576 So. 2d 1351, 1352 (Fla. Dist. [ x 11 ] Ct. App.
1991) (“There is no statutory authority, or authority
under Rule 1.070, Florida Rules of Civil Procedure,
for serving appellant only by certified mail, as was
done here.”). The District of Columbia also permits
the use of certified mail, provided that the return
receipt is signed by either the party to be served or
someone who is authorized to accept service on the
party’s behalf. D.C. Super. Ct. R. Civ. P. 4(c)(4), (e),
(i)(3); Cruz-Packer v. District of Columbia, 539 F.
Supp. 2d 181, 187 (D.D.C. 2008) (finding service
ineffective where the plaintiff mailed the required
papers to each individual defendant’s business
address, but failed to present evidence either that
they were delivered to any of the individual
defendants or that the people who signed for the
mailings were authorized to receive service of
process, as opposed to being authorized simply to
receive mail); Byrd v. District of Columbia, 230
F.R.D. 56, 59 (D.D.C. 2005) (“[It is] established
District of Columbia precedent that service of process
is invalid when the plaintiff sends a summons and
complaint by certified mail to a defendant’s offices
but the mail is signed for by a secretary, receptionist*
or other individual not specifically authorized to
accept service of process. This holds true even if the
receptionist or secretary generally opens and signs
for the mail delivered to that address.”).
Here, the District Court correctly held that
Bufkin failed to properly serve the government
parties in their individual capacities. First, service
by certified mail was not proper under either federal
or Florida law because Bufkin presented [ jl 12 ] no
A-10

evidence that the individual government defendants
waived personal service. Second, service by certified
mail was not proper under District of Columbia law
because Bufkin failed to show that any of the
individuals who signed for the mail, none of whom
appear to be the named defendants, were authorized
to receive service of process on behalf of the
individual government defendants.5 Accordingly,
because Bufkin did not properly serve the individual
government defendants, the District Court lacked
personal jurisdiction over Bufkin’s claims against the
government parties in their individual capacities.
The District Court therefore properly dismissed the
claims against the government parties in their
individual capacities.
C.
Alternatively, the District Court properly
determined that even if it had jurisdiction to
consider Bufkin’s claims against the government
parties, those claims should be dismissed for failure
to state a claim under Rule 12(b)(6). We review de
novo a district court’s ruling on a Rule 12(b)(6)
motion, viewing the facts in the light most favorable
to the plaintiff and accepting all well-pleaded facts
as true. Hill v. White, 321 F.3d 1334, 1335 (11th Cir.
2003). Although we liberally construe a pro se
litigant’s pleadings, Alba v. Montford, 517 F.3d 1249,
[ x 13 ] 1252 (11th Cir. 2008), we must dismiss a
complaint for failure to state a claim “when the
allegations in a complaint, however true, could not
8 In fact, some of the return receipts for the
documents sent to the IRS office in Washington, D.C.
contain nothing more than a stamp from the IRS
indicating the date they were received.
A-ll

raise a claim of entitlement to relief[.]” Bell Atl.
Corp. v. Twombly, 550 U.S. 544, 558, 127 S. Ct.
1955, 1966 (2007).
We have consistently rejected “tax protest”
arguments challenging the general applicability of
tax liability. See Biermann v. Comm’f, 769 F.2d 707,
708 (11th Cir. 1985) (“These arguments are patently
frivolous, have been rejected by courts at all levels of
the judiciary , and, therefore, warrant no further
discussion.”). Bufkin’s entire lawsuit rests on the
frivolous argument that he did not “volunteer” to be
a taxpayer and that the government parties violated
his fundamental “right not to contract” with the IRS.
The District Court thus did not err in dismissing his
claims under Rule 12(b)(6).
III.
Third, Bufkin challenges the District Court’s
order compelling arbitration with Scottrade on the
ground that the government parties are essential to
the resolution of his case but are not parties to
Bufkin’s arbitration agreement with Scottrade. He
also argues that the key question—whether he
volunteered to be a taxpayer—is not subject to
arbitration under the Financial Industry Regulatory
Authority’s regulations. We review a district court’s
decision regarding a motion to compel arbitration de
novo. Lawson v. Life of the South Ins. Co., 648 F.3d
1166, [ _L 14 ] 1170 (11th Cir. 2011). To determine
whether a dispute between parties to an enforceable
arbitration agreement is covered by the arbitration
clause, we apply the FAA. Id. Under the FAA, an
arbitration clause “shall be valid, irrevocable, and
enforceable, save upon grounds as exist at law or in
equity for the revocation of any contract.” 9 U.S.C.
§ 2. The FAA requires district courts to compel
A-12

arbitration of pendent arbitral claims when one of
the parties files a motion to compel, even if it results
in the inefficient maintenance of separate
proceedings in different forums. Dean Witter
Reynolds Inc. v. Byrd, 470 U.S. 213, 217, 105 S. Ct.
1238, 1241 (1985). In other words, “if a dispute
presents multiple claims, some arbitrable and some
not, the former must be sent to arbitration even if
this will lead to piecemeal litigation.” KPMG LLP v.
Cocchi, 565 U.S. 18, 19, 132 S. Ct. 23, 24 (2011) (per
curiam).
Here, the District Court did not err in granting
Scottrade’s motion to compel arbitration. Bufkin and
Scottrade agreed in writing that any dispute
between them would be subject to arbitration, and
Bufkin does not contest the validity of that
agreement. Moreover, Butkin’s claims against
Scottrade are clearly arbitrable breach-of-contract
claims—not “tax” claims, as Bufkin argues.6 Because
his [ _l 15 ] claims against Scottrade are distinct and
severable from his claims against the government
parties, the District Court did not err in requiring
Bufkin to arbitrate those claims separately. See
Cocchi, 565 U.S. at 19, 132 S. Ct. at 24; Dean Witter
Reynolds Inc., 470 U.S. at 217, 105 S. Ct. at 24.

6 Even construed as “tax” claims, the arbitration
agreement makes no explicit exceptions for claims
arising from potential tax liability. The FAA creates
a “presumption in favor of arbitrability [,]” and so
parties must clearly express their intent to exclude
certain claims from their arbitration agreements.
Paladino v. Avnet Computer Techs., 134 F.3d 1054,
1057 (11th Cir. 1998).
A-13

IV.
Finally, Bufkin appeals the clerk’s entry of the
judgments against him. He argues that the clerk
lacked the authority to sign the judgments and that
the exercise of such authority by the clerk amounted
to an impermissible delegation of the district judge’s
adjudicative power, which none of the parties
consented to. Bufkin contends that for a judgment to
be valid, it must be signed by the judge. But the
Federal Rules of Civil Procedure provide that “the
clerk must, without awaiting the court’s direction,
promptly prepare, sign, and enter the judgment
when... the court denies all relief.” Fed. R. Civ. P.
58(b)(1)(c). The District Court in this case had denied
all of Bufkiii’s requested relief when it granted the
government parties’ motion to dismiss and dismissed
Bufkin’s claims against Scottrade for failure to
comply with the Court’s previous orders mandating
arbitration. As such, the clerk properly signed and
entered the judgments in accordance with Rule 58(b).
C 16]
V.
Finally, the government parties ask us to impose
$8,000 in sanctions against Bufkin for maintaining
this frivolous appeal.7 Under Rule 38 of the Federal
7 Rather than asking the District Court to
calculate exact damages, the government parties ask
this Court to impose a flat damages award of $8,000.
That figure is lower than the average expense of
$12,500 that the Department of Justice claims it
typically incurs in the defense of frivolous taxpayer
appeals. We have previously noted that “this
procedure is in the appellant’s interest as he would
be liable for the additional costs and attorney’s fees
A-14

Rules of Appellate Procedure, “[i]f a court of appeals
determines that an appeal is frivolous, it may, after
a separately filed motion or notice from the court and
reasonable opportunity to respond, award just
damages and single or double costs to the appellee.”
Fed. R. App. P. 38. “Rule 38 sanctions have been
imposed against appellants who raise clearly
frivolous claims in the face of established law and
clear facts.” Farese v. Scherer, 342 F.3d 1223, 1232
(11th Cir. 2003) (quotation marks omitted). For
purposes of Rule 38 sanctions, a claim is frivolous if
it is “utterly devoid of merit.” Bonfiglio u. Nugent,
986 F.2d 1391, 1393-94 (11th Cir. 1993). Although
we are generally reluctant to impose Rule 38
sanctions on pro se appellants, Woods v. I.R.S., 3
F.3d 403,404 (11th Cir. 1993), we have imposed
sanctions on pro se appellants who had been
explicitly warned that their claims were frivolous, see
United States v. Morse, 532 F.3d 1130, 1132—33 (11th
Cir. 2008) (per curiam) (imposing sanctions on pro se
appellant who had been warned in the district court
that his tax claims were “utterly without merit”);
[ _l 17 ] Pollard v. Comm’r, 816 F.2d 603, 604^05
(11th Cir. 1987) (per curiam) (imposing sanctions on
pro se appellant who brought tax claims that were
already determined to be frivolous in a previous suit,
and for which appellant had already been
sanctioned).
As explained above, we have consistently rejected
“tax protest” arguments challenging the general
applicability of tax liability. See Biermann, 769 F.2d
incurred during any proceedings on remand.” Stubbs
v. Comm’r ofl.R.S., 797 F.2d 936, 939 (11th Cir.
1986).
A-15

at 708 (“These arguments are patently frivolous,
have been rejected by courts at all levels of the
judiciary, and, therefore/warrant no further
discussionNot only is it well-established that
such arguments are patently without merit, but we
have also already warned Bufkin, in his previous
appeal to this Court, that his arguments regarding a
voluntary tax system are frivolous and that his
claims are barred by sovereign immunity. See
Bufkin, 522 F. App’x at 532-33. Rule 38 sanctions
are therefore appropriate here. See Morse, 532 F.3d
at 1133; Pollard, 816 F.2d at 605.
Accordingly, we affirm the District Court’s orders
and grant the government parties’ motion for
sanctions in the amount they requested.
AFFIRMED; the motion for sanctions in the :
amount of $8,000 is GRANTED.

Rule 14.1(i)(ii)—Additional Orders
[581 M.D.Fla. (Dec. 21, 2017) — First Dismissal
(IRS-related parties).
Case 2:17-cv-0028l-JES-UAM Document 58 Filed
12/21/17 Page 1 of 11 PagelD 583
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
FORT MYERS DIVISION
MICHAEL EDWARD BUFKIN,
Plaintiff,
v.
Case No: 2:l7-cv-281-FtM-29CM
A-16

SCOTTRADE, INCORPORATED
JACOB J. LEW, Secretary, the
Department of the Treasury, TIMOTHY
F. GEITHNER,
Secretary, the
Department of the Treasury, JOHN
KOSKINEN, Commr, Internal Revenue
Service,
DOUGLAS
SHULMAN,
Commr, Internal Revenue Service,
STEVEN T. MILLER, Acting Commr,
Internal Revenue Service, DANIEL
WERFEL, Acting Commr,
Internal
Revenue
Service,
WILLIAM
J.
WILKINS, Chief Counsel, Internal
Revenue
Service, C.D. BAILEY,
Revenue Officer, Internal Revenue
Service, CALVIN BYRD, Revenue
Officer, Internal Revenue Service, and
UNITED STATES OF AMERICA,
Defendants.
OPINION AND ORDER
This matter comes before the Court on review of
defendant United States of America’s Motion to
Dismiss (Doc. #26)1 filed on [ jl 2 ] October 11, 2017.
Plaintiff filed a “Preliminary Response to United
States’ Motion(s) to Dismissal” (Doc. #53) on
November 27, 2017. The United States seeks to
dismiss the Complaint pursuant to Fed. R. Civ. P.
12(b)(1) and 12(b)(6).
I.
Rule 12(b)(1) motions challenging the subject
1 The motion was filed on behalf of the individuals
sued in their official capacity only.
A-17

,.V

matter jurisdiction of the court come in two forms, a
“facial” attack motion and a “factual” attack motion.
Morrison v. Amway Corp., 323 F.3d 920, 924 n.5
(11th Cir. 2003). A facial attack challenges subject
matter jurisdiction based on the allegations in the
complaint, and the court takes the allegations in the
complaint as true in deciding the motion. Id. at 924
n.5. The complaint may be dismissed for a facial
lack of standing only “if it is clear that no relief could
be granted under any set of facts that could be
proved consistent with the allegations.” Jackson v.
Okaloosa County. 21 F.3d 1531, 1536 n.5 (11th Cir.
1994) (citation omitted).
In deciding a Rule 12(b)(6) motion to dismiss, the
Court must accept all factual allegations in a
complaint as true and take them in the light most
favorable to plaintiff, Erickson v. Pardus, 551 U.S.
89 (2007), but “[l]egal conclusions without adequate
factual support are entitled to no assumption of
truth,” Mamani v. Berzain, 654 F.3d 1148, 1153
(11th Cir. 2011) (citations omitted). [i3 ]
II.
On May 22, 2017, plaintiff Michael Edward
Bufkin (Bufkin) filed his Original Complaint (Doc.
#1) asserting that he is not a taxpayer and remains a
non-taxpayer, and that the Internal Revenue Service
has no documentation to support the assertion that
Bufkin “volunteered” to be a taxpayer. (Id., f 25.)
Plaintiff alleges that defendants Jacob J. Lew,
Timothy F. Geithner, John Koskinen, Douglas
Shulman, Steven T. Miller, Daniel Werfel, William J.
Wilkins, and C.D. Bailey, acting jointly and
severally, conspired to obtain possession of Bufkin’s
funds from his Scottrade accounts. Bufkin alleges
that he made a demand for the return of the
A-18

property. (Id., If 31.)
Bufkin seeks $50,000 for “Administrative
sanctions” against the IRS-related actors. Bufkin
asserts a Bivens claim against defendants. (Id., f
37.) Bufkin argues that defendants must have
evidence of plaintiff having volunteered to be a
taxpayer before taking property under the guise of
tax collection. (Id., If 39.) Plaintiff alleges that he
confirmed through a FOIA request that the IRS has
no documents to support a finding that plaintiff
volunteered to be a taxpayer. Plaintiff argues that
he has the right not to contract with the IRS, and
has renewed this right every year. (Id., If 40.)
Plaintiff also asserts a conspiracy to violate
plaintiffs “right not to contract”, the failure to
prevent the conspiracy, [ x 4 ] and the deliberate
indifference of Wilkins for failing to train Bailey,
Lew, Geit[h]ner, Koskinen, Shulman, Miller, and
Werfel for each of the identified years between 2002
and 2007. (Id., IfH 47, 56-57, 65-76.)
Bufkin states that Calvin Byrd asserted that
taxes were due for 2004 and 2005, and that plaintiff
had a duty to file a return for 2012, 2013, 2014, and
2015, or be subject to an audit. (Id., 1f83.) Plaintiff
also seeks administrative sanctions in the amount of
$50,000 against Byrd because his position is
substantially unjustified. (Id. IHf 84-85.) Bufkin
alleges a Bivens claim against Byrd, and a
conspiracy with Koskinen, Wilkins, with Byrd. (Id.,
11 87, 97.)
For each year at issue, 2002 through 2007,
plaintiff seeks $1 million in actual damages, and $1
million in punitive damages for the confiscation of
his property based on tax claims. Alternatively,
plaintiff seeks injunctive/mandamus relief regarding
A-19

his status as a non-taxpayer.
Attached to the Complaint is a responsive letter
to plaintiffs Freedom of Information Act (FOIA)
request dated February 12, 2014. (Doc. #1-1, Exh.
P-3.) Also attached to the Complaint are plaintiffs
“demand” letters dated May 19, 2015, and February
11, 2016 as his “administrative process” compliance.
(Doc. #1-1, p. 3.) The first letter is addressed to Lew,
Koskinen, Wilkins, and Bailey to “address all
matters of immunity and [i5] administrative
process” and presents many of the claims
incorporated into the Complaint. (Doc. #1-1, Exh.
DL-1.) The second letter is addressed to Koskinen,
Assistant Attorney General Ciraolo, Wilkins, and
Byrd in response to the “demands” of Byrd in a letter
dated May 14, 2015, and focuses on plaintiffs
disagreement with the label of taxpayer. (Doc. #1-1,
Exh. DL-2.)

hi.
As a preliminary matter, plaintiffs arguments
that he is not a taxpayer, that it has not been proven
that he is a taxpayer, and that he did not volunteer
to pay taxes are patently frivolous and have been
rejected “by courts at all levels of the judiciary, and,
therefore, warrant no further discussion.” Biermann
v. C.I.R.. 769 F.2d 707, 708 (11th Cir. 1985). Any
request for injunctive or declaratory relief regarding
plaintiffs status as a taxpayer will be dismissed
without further discussion. See also Stubbs v.
Comm’r of I.R.S.. 797 F.2d 936, 938 (11th Cir. 1986)
(argument that wages were not taxable income
rejected as patently frivolous); Herriman v. C.I.R.,
521 F. App'x 912, 913 (11th Cir. 2013) (rejecting as
without merit argument that withholding of taxes
from wages is an unconstitutional direct income tax
A-20

without apportionment).
IV.
Sovereign immunity protects the federal
government and its agencies from civil liability
unless the federal government consents to suit. JBP
Acquisitions. LP v. U.S. exrel. F.D.I.C., [ jl 6 ] 224
F.3d 1260, 1263 (11th Cir. 2000); Zajac v. Clark. No.
2:13-CV-714-FTM-29, 2015 WL 179333, at *3 (M.D.
Fla. Jan. 14, 2015). The waiver must be
“unequivocally expressed” to be effective. United
States v. Nordic Vill. Inc., 503 U.S. 30, 33 (1992).
Absent some waiver, the Court does not have
subject-matter jurisdiction.
The Federal Tort Claims Act (FTCA) provides a
limited waiver of sovereign immunity for tort claims,
Dalrymple v. United States, 460 F.3d 1318, 1324
(11th Cir. 2006), however an administrative claim
with the agency remains a prerequisite to filing a
tort action, Motta ex rel. A.M. v. United States, 717
F.3d 840, 843 (11th Cir. 2013). The Court will
consider the various bases to exercise jurisdiction
over plaintiffs claims.
A. Recovery Action
The district courts have original jurisdiction over
civil actions against the United States “for the
recovery of any internal-revenue tax alleged to have
been erroneously or illegally assessed or collected, or
any penalty claimed to have been collected without
authority or any sum alleged to have been excessive
or in any manner wrongfully collected under the
internalrevenue laws.” 28 U.S.C. § 1346(a)(1).
However, “[n]o suit or proceeding shall be
maintained in any court for the recovery of any
internal revenue tax alleged to have been
erroneously or illegally assessed or collected, or of
A-21

any penalty claimed to have been collected without
authority, or of any sum alleged to have [ _l 7 ] been
excessive or in any manner wrongfully collected,
until a claim for refund or credit has been duly filed
with the Secretary.” 26 U.S.C. § 7422(a).
Other than making a FOIA request regarding his.
taxpayer status, and sending two letters that did not
actually assert a claim, plaintiff does not allege that
he filed a formal claim for refund or recovery of the
Scottrade account funds. Further, the plaintiff
explicitly rejects the argument that he is seeking a
refund under Section 1346. (Doc. #1,W & 11.)
Therefore, to the extent plaintiff is seeking recovery
of those funds, the motion to dismiss will be granted.
B. Collection Action
If plaintiff is seeking to bring suit against an
officer or employee of the IRS regarding the
collection of taxes, a “taxpayer may bring a civil
action for damages against the United States in a
district court of the United States” if any officer or
employee of the IRS “recklessly or intentionally, or
by reason of negligence, disregards any provision of
this title, or any regulation promulgated under this
title.” 26 U.S.C. § 7433(a). To obtain damages, a
plaintiff must still exhaust administrative remedies
available within the IRS.
Again, there is no indication that plaintiff has
taken any effort to exhaust, and any action must be
brought within 2 years after the date the right of
action accrued. 26 U.S.C. § [ x 8 ] 7433(d)(3). The
Scottrade funds were sold and transferred to the IRS
on or about May 2013, and the Complaint (Doc. #1)
was filed on May 22, 2017. Even if plaintiffs letter
dated May 19, 2015 threatening suit was considered
as the date the right of action accrued, there are no
A-22

facts in the Complaint supporting a claim of reckless
or intentional disregard of IRS regulations. The
motion to dismiss will be granted.
C. Anti-Injunction Act & Declaratory
Judgment Act
The Court notes that this is not plaintiffs first
suit regarding his taxes. The previous suit was
dismissed because the Anti-Injunction Act and
Declaratory Judgment Act preclude the suit, and
therefore plaintiff could not state a claim. Bufkin v.
United States, No. 2:ll-CV-553-FTM-29, 2012 WL
5381970, at *2 (M.D. Fla. Nov. 1, 2012). The
dismissal with prejudice was affirmed on appeal
because Bufkin had failed to demonstrate that the
United States had waived its sovereign immunity.
Bufkin v. United States, 522 F. App'x 530, 532 (11th
Cir. 2013). This remains the case. Plaintiffs claims
for injunctive or declaratory relief are precluded
because he has not shown that sovereign immunity
has been waived. The motion to dismiss will be
granted.
D. Conspiracy Claims
Plaintiff asserts a conspiracy by all defendants
without making any factual allegations of how each
defendant participated to collude with one another.
Plaintiffs theory of conspiracy [ _l 9 ] stems from the
collection or method of collecting levied funds from
the Scottrade accounts. Even if adequately pled,
plaintiffs claims of conspiracy are also foreclosed
because sovereign immunity has not been waived.
Ishler v. Internal Revenue, 237 F. App'x 394, 398
(11th Cir. 2007). The motion to dismiss will be
granted as to the conspiracy claims.
E. Individual Capacity
A-23

Plaintiff filed several “Proofs of Service” wherein
plaintiff indicates that he personally served Jeff
Sessions as United States Attorney General, Jacob J.
Lew, Timothy F. Geithner, John Koskinen, Douglas
Shulman, Steven T. Miller, Daniel Werfel, W.
Stephen Muldrow as United States Attorney for the
Middle District of Florida, and Channing D. Phillips,
as United States Attorney for the District of
Columbia by certified mail. (Docs. ## 30-40.) None
of the individuals were personally served with
process in their individual capacity. Plaintiff filed
Status Reports (Docs, ## 41, 42) as to Calvin Byrd
and C.D. Bailey that they may no longer be
employed by the IRS. Plaintiff later filed his Proofs
of Service for both. (Docs. ## 45, 46.)
The United States does not represent the various
defendants in their individual capacity, only in their
official capacities, however a Response to Plaintiffs
Proofs of Service (Doc. #47) was filed to “counter
Bufkin’s representation to the Court that he served
the individual defendants.” (Doc. #47, p. 1 n.l.)
[ x 10 ] Plaintiff responded to this Response at
length, treating it as an Objection, arguing why
service was in compliance with “restricted delivery”,
and that the Department of Justice bears the burden
to demonstrate that the signor was not an authorized
agent for service. It remains the case that the
individuals were not personally served with process,
and therefore the claims against the individuals are
due to be dismissed.
Even assuming service of process was proper, the
claims against the individuals personally are due to
be dismissed as without merit. Under Bivens 2, a
2 Bivens v. Six Unknown Named Agents of Fed.
Bureau of Narcotics, 403 U,S. 388, 397 (1971).
A-24

plaintiff may sue federal officers in their individual
capacity for constitutional violations. This does not
include liability for conduct of subordinates under a
theory of respondeat superior. Ashcroft v, Iqbal, 556
U.S. 662, 676 (2009). Plaintiff vaguely alludes to a
failure to train, deliberate indifference, and a
conspiracy but no personal action by most of the
individual defendants. As to Byrd, who sought
documents from plaintiff, plaintiffs Bivens claim is
precluded because plaintiff had an alternative
remedy to obtain redress through the Tax Court.
Topping v. U.S. Dep't of Educ., 510 F. App'x 816, 819
(11th Cir. 2013). [ _l 11 ]
“Due to the comprehensiveness of the Internal
Revenue Code, courts are nearly unanimous in
holding that Bivens relief is not available for alleged
constitutional violations by IRS officials involved in
the process of assessing and collecting taxes.” Zajac
v. Clark. No. 2:13-CV-714-FTM-29, 2015 WL 179333,
at *5 (M.D. Fla. Jan. 14, 2015) (collecting cases).
The claims against the individuals in their
individual capacity will be dismissed for this
additional basis.
Accordingly, it is now
ORDERED:
1. Defendant’s Motion to Dismiss (Doc. #26) is
GRANTED and the Complaint is dismissed with
prejudice as to all defendants except Scottrade,
Incorporated.
2. The Clerk shall enter judgment accordingly,
terminate all pending motions and deadlines as
moot, and administratively close the file pending
arbitration with Scottrade Incorporated.
DONE AND ORDERED at Fort Myers, Florida,
this 21st day of December, 2017.
A-25

/s/ John E. Steele
JOHN E. STEELE
SENIOR UNITED STATES DISTRICT JUDGE
Copies:
Plaintiff
Counselof record

f591 Deputy Clerk, M.D Fla. (Dec. 22, 2017) —
“Judgment” per [581.
Case 2:17-cv-00281-JES-UAM Document 59 Filed
12/22/17 Page 1 of 2 PagelD 594
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
FORT MYERS DIVISION
MICHAEL EDWARD BUFKIN,
Plaintiff,
v.
Case No: 2:17-cv-281-FtM-29CM
SCOTTRADE, INCORPORATED,
JACOB J. LEW, TIMOTHY F.
GEITHNER, JOHN KOSKINEN,
DOUGLAS SHULMAN, STEVEN T.
MILLER, DANIEL WERFEL,
WILLIAM J. WILKINS, C.D. BAILEY,
CALVIN BYRD, and UNITED STATES
OF AMERICA,
Defendants.
JUDGMENT IN A CIVIL CASE
A-26

IT IS ORDERED AND ADJUDGED that
pursuant to this Court’s Order of December 21, 2017,
this action is DISMISSED with prejudice as to
defendants’ [sic] Jacob J. Lew, Timothy F. Geithner,
John Koskinen, Douglas Shulman, Steven T. Miller,
Daniel Werfel, William J. Wilkins, C.D. Bailey,
Calvin Byrd, and the United States of America.
December 22, 2017.
ELIZABETH M. WARREN,
Clerk
/s/ Michele L. Stress, Deputy Clerk

1731 M.D.Fla. (Mar. 28, 2019) - Second Dismissal
(SCOTTRADE).
Case 2:17-cv-00281-JES-UAM Document 73 Filed
03/28/19 Page 1 of 2 PagelD 642
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
FORT MYERS DIVISION
MICHAEL EDWARD BUFKIN,
Plaintiff,
Case No: 2:17-cv-281-FtM-29CM
v.
SCOTTRADE, INCORPORATED,
apparently an Arizona corporation,
officially and individually,
Defendant.
ORDER OF DISMISSAL
A-27

This matter comes before the Court on review of
defendant’s Status Report (Doc. #72) filed on March
27, 2019, in response to the Court’s Order (Doc. #71)
directing either party to file a status as to whether
plaintiff had initiated arbitration. Scottrade, Inc.
reports that it has still received no statement of
claim by plaintiff, or any other notice that plaintiff
has initiated or attempted to initiate arbitration. In
the Court’s February 15, 2019, [sic] [“order” is
presumed] the Court indicated that the case would
be dismissed “without prejudice and without
further notice” if plaintiff failed to take measures
to initiate arbitration. (Doc. #70). As plaintiff has
failed to do so, the case will be dismissed.
Accordingly, it is hereby
ORDERED: [i2]
The Clerk shall enter judgment dismissing the
case without prejudice as to the remaining defendant
Scottrade, Inc. for failure to comply with the Court’s
Order (Doc. #70), terminate all deadlines and
motions, and close the file.
DONE and ORDERED at Fort Myers, Florida,
this 28th day of March, 2019.
/s/ John E. Steele
JOHN E. STEELE
SENIOR UNITED STATES DISTRICT JUDGE
Copies:
Plaintiff
Counsel of record

A-28

r

Lv

%

F741 Deputy Clerk, M.D.Fla. (Mar. 29, 2019) “Judgment” per T731.
Case 2:17-cv-00281-JES-UAM Document 74 Filed
03/29/19 Page 1 of 2 PagelD 594
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
FORT MYERS DIVISION
MICHAEL EDWARD BUFKIN,
Plaintiff,
Case No: 2:17-cv-281-FtM-29UAM
v.
SCOTTRADE, INCORPORATED,
apparently an Arizona corporation,
officially and individually,
Defendant.
JUDGMENT IN A CIVIL CASE
IT IS ORDERED AND ADJUDGED entered on
March 28, 2019, this case is hereby dismissed
without prejudice as to the remaining Defendant
Scottrade, Inc. For failure to comply with the Court’s
Order (Doc. #70).
March 29, 2019.
ELIZABETH M. WARREN, CLERK
/s/D. Nipper, Deputy Clerk

A-29

Rule 14.1(i)(iii)—Rehearing
None.
Rule 14.1(i)(iv)—Judgment of Different Date
None on appeal.

Rule 14.1(i)(v)—Statutes
The efficient focus is on reinstating FOIA.

Rule 14.1(i)(vi)—Additional materials
Reference to the Record will suffice.
There’s no Record-based, assigned § 451 judgesigned, -filed, or -Served referral order.
[55] Arbitration ordered.
[70] Arbitration ordered, again.

A-30

